Case l:18-cv-01361-LO-MSN Document 7 Filed 01/18/19 Page 1 of 2 PagelD# 28

IN THE UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF VIRGINIA
r.

Alexandria Division
Karl-Heinz Dupuy,
Petitioner,
v.
Unknown,
Respondent.

)
)
)
)
)
)
)

l:18cvl36I (LO/MSN)

ORDER
Karl-Heinz Dupuy, a Virginia inmate proceeding pro se, initiated this action by sending a .
letter to the court, stating that he had been wrongfully convicted of unspecified offenses. By an
Order dated November 13,2018, Dupuy was informed that the exclusive statutory basis for a
litigant’s right to apply to federal court for relief from a conviction or sentence entered by a state
court is 28 U.S.C. § 2254, and that his correspondence would be interpreted as seeking such
relief. Dupuy was supplied with a standard form petition for relief under § 2254 and was
allowed thirty (30) days within which to complete and file it, in accordance with Local Civil Rule
83.4. Dupuy was also assessed the statutory filing fee of $ 5.00 and was instructed either to pay
the fee or to apply to proceed in forma pauperis within thirty (30) days. Petitioner was advised
that failure to adhere to any part of the Order within thirty (30) days would result in dismissal of
the petition. Dupuy has submitted a motion for leave to proceed in forma paup_eris, but he has
failed to file the habeas corpus petition.
Accordingly, it is hereby
ORDERED that the petition be and is DISMISSED WITHOUT PREJUDICE.

h

Case l:18-cv-01361-LO-MSN Document 7 Filed 01/18/19 Page 2 of 2 PagelD# 29

To appeal, the petitioner must file a written notice of appeal with the Clerk’s Office
within thirty (30) days of the date of this Order. A written notice of appeal is a short statement
stating a desire to appeal this Order and noting the date of the Order petitioner wants to appeal.
Petitioner need not explain the grounds for appeal until so directed by the court. Petitioner must
also request a certificate of appealability from a circuit justice or judge. See 28 U.S.C. § 2253
and Fed. R. App. P. 22(b). For the reasons stated above, this Court expressly declines to issue
such a certificate.

The Clerk is directed to send a copy of this Order to petitioner and to close this civil
action.
Entered this

\

day of

2019.
\

/s/^

Alexandria, Virginia

Liam O’Grady
\\
United States District Judgi

2

v

)

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-6221
KARL HEINZ DEPUY,
Petitioner - Appellant,
v.
UNKNOWN,
Respondent - Appellee.

Appeal from the United States District Court for the Eastern District of Virginia, at
Alexandria. Liam O’Grady, District Judge. (l:18-cv-01361-LO-MSN)
Submitted: June 20, 2019

Decided: "June 25,7 2019
*

Before NIEMEYER, AGEE, and RICHARDSON, Circuit Judges.
Dismissed by unpublished per curiam opinion.
Karl Heinz Depuy, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

•:

r.

v<

Supreme Court of the United States
Office of the Clerk
Washington, DC 20543-0001
November 4, 2019

Scott S. Harris
t Clerk of the Court
(202) 479-3011

Mr. Karl Heinz Dupuy :
Prisoner ID #1869604
Greensville Correctional Center
901 Corrections Way
Jarratt, VA 23870

Re: Karl Heinz Dupuy
v. Unknown
No. 19-5716

Dear Mr. Dupuy:
The Court today entered the following order in the above-entitled case:
The petition for a .writ of certiorari is denied..

Sincerely,.

Scott Si Harris, Clerk

c
—/

V

m

CLERK'S OFFICE

MICHAEL E. LEVY
Resident Judge
CHARLES S. SHARP
Resident Judge
VICTORIA A. B. WILLIS
Resident Judge

KATHLEEN M. STERNE
Clerk of Court

P.O. BOX 69
STAFFORD, VIRGINIA 22555
(540) 658-8750

DAWN E. CRISP
Chief Deputy

November 5,2018
Karl Dupuy #1869604 HU-9-336
Greensville Correctional Center
901 Corrections Way
Jarratt, VA 23870

Re: Commonwealth v. Karl Dupuy
This is to acknowledge that the Court is in receipt of your letter regarding your
copy request of your Pre-Sentence Report; this copy request should be processed through
your counsel at the time of the hearing. The Clerk’s Office is providing you a copy the
letter in regards to your transcript request; you must inquire Frances Haley’s office in
order to obtain copies of your transcripts.

Very truly

:s,

Deputy

S;

to en

-

ford Circuit Court

v-

Additional material
from this filing is
available in the
Clerk's Office.

SUPREME COURT OF THE UNITED STATES
OFFICE OF THE CLERK
WASHINGTON, DC 20543-0001
May 12, 2020

Karl Depuy
#1869604
Greensville Correctional Center
901 Corrections Way
Jarratt, VA 23870
tfm

RE: In Re Depuy

(

Dear Depuy:
The above-entitled petition for an extraordinary writ of habeas corpus was received on
May 7, 2020. The papers are returned for the following reason(s):
The petition does not show how the writ will be in aid of the Court's appellate
jurisdiction, what exceptional circumstances warrant the exercise of the Court's
discretionary powers, and why adequate relief cannot be obtained in any other form or
from any other court. Rule 20.1.
The petition does not state the reasons for not making application to the district court
of the district in which you are held. Rule 20.4(a) pertaining to petitions for writs of
habeas corpus.
The motion for leave to proceed in forma pauperis must be signed by the petitioner or
by counsel. Rules 33.2(a) and 39.
The notarized affidavit or declaration of indigency does not comply with Rule 39 in
that it is incomplete. Please respond to every item, indicating "n/a" or "0" where
applicable.
The petition does not follow the form prescribed by Rule 14 as required by Rule 20.2.
You may use the enclosed template for a petition for a writ of certiorari as a guide.
A copy of the corrected petition must be served on opposing counsel.

A copy of the rules of this Court are enclosed.

Sincerely,
Scott S. Harris, Clerk
Byk

COPY

Clara Houghteling
(202) 479-5955

Enclosures

